This report presents the conclusions of the OIG and the findings reported do not
necessarily represent CPB’s final position on these issues. CPB management is
responsible for determining the corrective actions to be taken, in accordance with CPB
audit resolution procedures.

Based on the Foundation’s response to the draft report, we consider recommendations
1a-c, 2b, and 3a-c unresolved pending CPB management’s decision on our
recommendations, including the collection of overpayments. Recommendation 2a is
resolved but open pending CPB’s acceptance of the Foundation’s corrective actions.

                                  BACKGROUND
The Foundation was founded in 1949 as a visionary alternative to commercially-driven
media. The Foundation’s website stated that this was a time when the idea of a
listener-sponsored community radio station was a new one that had never been
implemented. However, the idea was too compelling and in 1949 station KPFA in
Berkeley, California went on the air. This was a new broadcast model which did not rely
on some form of corporate or government funding.

Pacifica’s mission is to promote peace and justice through communication between all
races, nationalities and cultures. They strive to contribute to the democratic process
through public discourse and promotion of culture. Not to beholden to commercial or
government interests, Pacifica recognizes that use of the airwaves is a public trust.

The Foundation is headquartered in Berkeley, California and is the licensee of the five
sister station network which also includes 131 affiliated independent radio stations
throughout the United States.

CPB awards CSGs to public radio stations based on the amount of NFFS claimed by
stations on their AFRs. The CSG calculation process starts with the separate amounts
appropriated for the radio CSG pool adjusted by the amount of the base grants. The
funds that remain are called the Incentive Grant Pool. The Incentive Rate of Return
(IRR) is calculated by dividing the Incentive Grant Pool by the total amount of NFFS
claimed by all radio stations. The IRR is then multiplied by the station’s reported NFFS
to calculate the incentive award amount of the station’s total CSG. There is a two year
lag between the reported NFFS and CPB’s calculation of a FY’s CSG amount. Thus
CPB used the NFFS claimed on the FY 2008 AFR to determine the amount of CSG a
station received in FY 2010. The IRR applicable to FY 2009 NFFS was 6.4888 percent
and 6.21241 percent for FY 2010 NFFS.

The Foundation’s annual CSG awards totaled $3,000,373 ($1,591,869 in FY 2009 and
$1,408,504 in FY 2010). Each CSG grant can be spent over a two year period. The FY
2010 CSG can be spent over the period October 1, 2009 through September 30, 2011.
The Foundation’s fiscal year covers the period October 1 through September 30 of each
year.


                                            2
CPB’s cash payments to the Foundation totaled $3,148,534 during our audit period for
the CPB grants listed in Exhibit A. The Foundation recognizes revenues when the
funds are spent. As a result, Exhibit A cash receipts can be recognized as revenues
over multiple fiscal years depending upon when the funds are actually expended. The
Foundation’s FY 2009 – 2010 AFRs reported total CPB revenues of $2,976,642.

The Foundation’s AFRs reported total revenues of $24,068,388 per Exhibits B – C. The
Foundation reported total NFFS of $20,520,172 as presented in Exhibits D - E.

                              RESULTS OF REVIEW
We examined management’s assertions of compliance with CPB’s CSG agreement
terms for fiscal years 2009 and 2010, as well as NFFS reporting Guidelines for the
periods ended September 30, 2009 and September 30, 2010. Management is
responsible for compliance with these requirements. Our responsibility is to express an
opinion on management’s assertions about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards, for attestation engagements, and accordingly, included examining on a test
basis evidence of the Foundation’s compliance with those requirements and performing
such other procedures as we considered necessary. We believe that our examination
provides a reasonable basis for our opinion. Our examination does not provide a legal
determination of the Foundation’s compliance with specified requirements.

Our examination disclosed the following issues of material noncompliance with CPB’s
CSG grant terms, as well as CPB’s NFFS financial reporting, Certification of Eligibility,
and Communications Act requirements applicable to the periods ending September 30,
2009 and 2010.

         over-stated NFFS of $2,098,885 resulting in excessive CPB CSG grant
          payments of $133,240, classified as funds put to better use for reporting
          purposes;
         expenditures from the unrestricted portion of the CPB CSGs were not
          discretely accounted for in the accounting records of the five radio stations,
          instead they were comingled with other expense transactions; and
         noncompliance with statutory provisions of the Communications Act for open
          meetings, open financial records, and documenting operating procedures.

In our opinion, because of the effect of the material noncompliance issues described
above, the Foundation did not comply with the aforementioned requirements for the
periods ending September 30, 2009 and 2010.




                                            3
                     FINDINGS AND RECOMMENDATIONS

Reporting Non-Federal Financial Support

The Foundation’s radio stations did not fully comply with CPB Guidelines for reporting
NFFS by improperly claiming $2,098,885 as direct revenues and NFFS on their AFRs
as presented in the following table. These revenues represent a material over-
statement (more than 10 percent) of the $20,520,172 of NFFS reported during our
examination period. The over-statement occurred because the Foundation: did not
deduct the costs of high-value premiums from membership revenue for all five stations;
claimed special fund-raising revenues that were valued at less than the fair market
value of the incentives provided to listeners for their contributions to WBAI; and, did not
deduct all direct expenses from special fund-raising revenues for all five stations.

Reporting unallowable NFFS resulted in CPB making $133,240 in excess CSG grant
payments to the Foundation during FYs 2011 and 2012. We classified the $133,240 as
funds put to better use for reporting purposes because the funds paid to the Foundation
could have been distributed to other public broadcasting entities.

                    Description                  Unallowable NFFS
                                       FY 2009       FY 2010         Total
                Reported NFFS         $10,052,897   $10,467,275   $20,520,172

                Unallowable NFFS:
                Premium Deductions       $826,061      $898,163     $1,724,224
                Market Value             $151,748      $170,144       $321,892
                Expense Deductions.       $52,769            $0        $52,769
                      FY Total         $1,030,578    $1,068,307     $2,098,885

                       IRR              0.064888     0.0621241
                 CSG Overpayment         $66,871        $66,369      $133,240

       Premium Expenses

Our review of membership and subscription revenues identified that the fair market
value of high-end premiums (i.e. thank you gifts) given to donors for contributions were
not deducted from membership revenues claimed as NFFS on FY 2009 and 2010
AFRs, as required by the CPB Guidelines. The AFR reconciliation work sheets
prepared by the Foundation contained references to the need to deduct the fair market
value of premiums that were given to donors except for premiums of insubstantial value.
These deductions were not made even though the detailed general ledgers for the
stations contained premiums accounts (titled Premiums - Development #6750-03) that
included large expenses. These expenses are presented by station and fiscal year in
Exhibit F.




                                             4
CPB Financial Reporting Guidelines, Section 5 Completing AFR Schedule A, Direct
Revenue, Line 10 contains a subsection titled NFFS Exclusions Value of High-end
Premiums which states that “Grantees are required to deduct from NFFS the fair market
value of high-end premiums (i.e. thank you gifts) that are exchanged with donors for
contributions. Thank you gifts may be anything of value from low-end premiums (e.g.
coffee mugs and tee shirts) to high-end premiums (e.g. boxed set CDs or DVDs, coffee
table books, travel & lodging, gourmet foods & wines, tickets to performances, dinners
or other events). However, Grantees must follow IRS guidelines (printed at the end of
these line 10 instructions) for determining insubstantial value in quid pro quo
contributions.”

We questioned the entire amount of high-end premiums identified in the detailed
general ledger accounts because the Foundation did not separate the costs of
insubstantial premiums in its records. By not deducting the value of high-value
premiums from membership revenues, NFFS was overstated $1,724,224 on the
stations’ FY 2009 and 2010 AFRs.

      Special Fund-raising Revenues

Our review of special fund-raising revenues identified that WBAI claimed special fund-
raising revenues from the sale of discount Broadway and off-Broadway show tickets
even though the revenue received was less than the fair market value of the tickets.
WBAI’s AFR claimed a total of $321,892 as NFFS on their AFRs for FY 2009 and 2010,
$151,748 and $170,144 respectively, as presented in Exhibit F.

CPB’s Guidelines require that when a premium of more than inconsequential value is
given in exchange for a contribution, the fair market value of the premium must be
deducted from the contribution in order to determine if there was an NFFS value in the
transaction. In this case, the NFFS would be equal to the amount of the contribution
that was greater than the value of the premium given to the contributor.

A Saturday morning radio show host obtained free show tickets from friends in the
industry that he sold on air in exchange for listener contributions. We were told that
while the tickets all had face values listed on them, the contributors paid much less than
the face value of the tickets. Ticket values ranged from $65 to $125 or more. This
resulted in a $321,892 over-statement of NFFS because the contributions received from
listeners were less than the fair market value of the tickets.

      Special Fund-raising Expenses

The Foundation did not report special fund-raising revenues net of all direct expenses
on the FY 2009 AFRs, for all five stations as required by CPB Guidelines. The AFR
reconciliation worksheets prepared by the Foundation identified direct special fund-
raising expenses (general ledger accounts #6751-03 Fund Drive - Dev and #6780-03
Other - Dev); however, these expenses were not netted against gross special fund-




                                            5
raising revenue when preparing the 2009 AFRs. As a result, NFFS was overstated a
total of $52,769 on the five stations’ AFRs as presented in Exhibit F.

CPB Guidelines require that only net special fund-raising revenues (net of direct special
fund-raising expenses) are eligible as NFFS. AFR Schedule A, Direct Revenue, Line
14, “Special fundraising activities” automatically presents the net of Line 14A “Gross
special fundraising revenues” and Line 14B “Direct special fundraising expenses.”
                                       *   *     *     *   *

Foundation personnel told us that the various AFRs reporting errors were the result of
new staff members preparing the AFRs. In addition, the Foundation’s independent
public accountant stated that he did not recognize the need to subtract the costs of high
value premiums from membership revenue when conducting his attestation examination
of the AFRs submitted to CPB.

       Recommendations

1) We recommend that CPB management require the Foundation to take the following
actions:

   a) Identify the costs of high-end premiums recorded in general ledger account
      Premiums - Development #6750-03 and net them against the FY 2009 and 2010
      membership revenues reported as NFFS for each station. Revise WBAI’s FY
      2009 and 2010 special fund-raising revenues by eliminating the NFFS resulting
      from the sale of Broadway and off-Broadway tickets. Net all direct special fund-
      raising expenses against direct fund-raising revenues for the FY 2009 AFRs for
      each station. Recalculate eligible NFFS based on these revisions to membership
      and fund-raising revenues.
   b) Submit revised FY 2009 and 2010 AFRs for the five radio stations eliminating the
      unallowable direct revenues totaling $1,030,578 on the FY 2009 AFRs and
      $1,068,307 on the FY 2010 AFRs adjusted for corrected membership and special
      fund-raising revenues in recommendation 1a.
   c) Recover $133,240 in excess CSG payments made to the Foundation radio
      stations during FYs 2011 and 2012 adjusted for corrected membership and
      special fund-raising revenues discussed in recommendation 1a.

       Foundation Response

In response to this finding, Foundation officials stated that its finance staff followed the
template that was reviewed and approved by its independent auditor who attested to the
direct revenue each year although high-end premiums values were not deducted. The
Foundation’s response went on to describe the methods used in valuing high-end
premiums for the FY 2011 AFR, as further described in its response to the draft report
(Exhibit H). Regarding special fund-raising revenues, the Foundation’s response stated
that: “In the case where contributors received actual theater tickets, the face value, if
any, on the tickets was much less than the purchase price from the theater.”



                                             6
       OIG Review and Comment

Based on the Foundation’s response, we consider recommendations 1a-c unresolved
pending CPB management’s decision. The Foundation acknowledged that they had not
deducted the cost of high-end premiums from membership revenues, but they had
changed their procedures for the 2011 AFR, with the approval of its independent public
accountant. We did not evaluate the appropriateness of the changes made by the
Foundation on its FY 2011 AFR reporting. The Foundation’s response did not
specifically address any of the three recommendations 1a-c in the draft report.

With respect to the sale of show tickets given in exchange for listener contributions;
Foundation officials maintain that the face value of the tickets was much less than the
purchase price from the theatre. However, the Saturday morning radio host told us that
he obtained the tickets for free and that the station contributors paid much less than the
face value of the tickets. In addition, a CPB official informed Foundation
representatives that the fair market value of the premium (ticket) must be based on the
ticket price or admission fee the general public would pay to attend these performances;
this fair market value is what must be deducted from each contribution in order to
determine if there is an NFFS value in the contribution.

The Foundation response did not address the finding related to deducting direct
expenses from special fund-raising revenues on its 2009 AFRs. As reported this
problem did not occur on the 2010 AFRs and Foundation officials acknowledged that
the 2009 AFR reporting errors were the result of new staff members preparing the
AFRs.


Discrete Accounting for Unrestricted CSG Funds

The Pacifica Foundation’s accounting system did not separately identify the use of
unrestricted CSG funds in accordance with CPB grant terms. The restricted portion of
the CSG funds was discretely accounted for in the accounting system enabling us to
verify the use of those funds for national programming. However, expenditures from the
unrestricted portion of the CSGs were comingled with other station expenses,
consequently we could not independently verify CPB expenditures without the
assistance of the Foundation’s accounting officials. These officials told us that they fully
expended CSG grant funds during the year they were received on salaries, benefits and
general operating expenses.

CPB’s General Provisions and Eligibility Criteria for TV and Radio CSGs, Section 10.B.
Record Keeping and Audit Requirements, require stations to provide discrete
accounting and proper documentation to support all CSG revenues and expenditures.
Furthermore:




                                             7
      CSG funds which cannot be accounted for because of the recipient’s failure to
       comply with this requirement may be subject to repayment;
      grant recipients must maintain financial records that facilitate an effective audit;
       and,
      records must be retained for no less than three years after the end of the
       expenditure period.

Finally, CPB’s website provides further guidance stating: “Discrete accounting requires
a unique code that identifies CSG funds – both revenues and expenses, restricted and
unrestricted – so that both the grantor and the auditor can discretely track those funds
within the accounting system. There is no requirement to segregate CSG funds in
separate bank accounts. Co-mingling funds is allowable as long as the accounting
system can easily identify transactions associated with a major activity (i.e., department,
grant, contract or other project).”

Our review found that separate CPB expense accounts were not established in the
general ledger to record the use of the unrestricted portion of the CSG funds.
Expenditures of unrestricted CPB funds were comingled with other station revenues and
expenses. We had to rely on Foundation accounting officials to identify the expenses
charged to the unrestricted CSGs.

 Foundation and station officials said they were aware of the need to segregate the
restricted portion of the CSG and use it to purchase national programming, but were not
aware of the requirement for discrete accounting of the unrestricted portion of the CSG.

       Recommendations

2) We recommend that CPB management require the Foundation to:

   a) set-up appropriate accounts in its accounting system to discretely account for
      future unrestricted CSG revenues and expenditures, as required by CPB’s Radio
      Community Service Grant General Provisions and Eligibility Criteria to facilitate
      an effective audit; and
   b) provide CPB with evidence of its corrective actions.

       Foundation Response

In response to recommendation 2a, Foundation officials stated that the finance staff
modified its accounting records to add the designation “07” for all expense items where
the unrestricted portion of the CPB CSGs are expended.

       OIG Review and Comment

Based on the Foundation’s response, we consider recommendation 2a resolved but
open pending CPB management’s final decision to accept the Foundation’s corrective
action. The Foundation’s response did not specifically address recommendation 2b. As


                                              8
a result, we consider recommendation 2b unresolved until the Foundation’s provides
CPB with documentation (e.g., accounting reports, chart of accounts, etc.)
demonstrating that discrete accounting is being used to account for all restricted and
unrestricted CPB revenues and expenses.


Compliance with the Communications Act

Our examination found that the Foundation was not in full compliance with open
meeting and open financial record requirements of the Act and CPB Certification
Requirements for Station Grant Recipients. Further, the Foundation had not
established operating procedures to document how its radio stations complied with CPB
requirements.

       Open Meetings

Our examination of compliance with open meeting requirements at the three stations
tested (KPFA, WBAI and WPFW) found that:

      one station did not have evidence that advance notice requirements of open
       meetings were met,
      all three stations did not make quarterly announcements of their open meetings
       policies, and
      two stations did not document reasons for closing public meetings.

Specifically, we found that WBAI did not have evidence that open meeting
announcements for the Local Station Board or the committees of the Local Station
Board were made seven or more days prior to the meetings, as required by the
Communications Act. While WBAI provided audio copies of its on-air announcements
of upcoming Community Advisory Board (CAB) meetings and they told us that the
announcements were always made at least seven days in advance of the meetings, we
could not verify when they aired. The on-air announcements were not dated and there
was no other evidence to demonstrate that they were aired seven or more days prior to
the meeting dates, as required by the Act. Further, making on-air announcements of
upcoming public meetings does not satisfy the statutory requirement for advance notice,
as discussed below under minimum compliance requirements for “reasonable notice.”

In addition, all three stations tested did not make on-air announcements at least three
consecutive days each calendar quarter that explained the stations’ open meeting policy
and how the public could obtain information on the dates, times, and locations of
upcoming meetings, as required by the Act. Finally, KPFA and WBAI did not maintain
copies of written statements explaining the reasons for closing a meeting to the public
pursuant to statutory exceptions.

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)) prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing


                                             9
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance requirements for “reasonable notice” to the public as stated in
CPB’s explanation of the Act requires stations to “give reasonable notice to the public of
the fact, time and place of an open meeting at least one week (7 days) in advance of
the scheduled date . . . .” CPB’s explanation of the Act requires stations to provide
three types of notice.

       1. Notice placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements on at least three consecutive days once
          during each calendar quarter that explain the station's open meeting
          policy and provides information about how the public can obtain
          information regarding specific dates, times, and locations.

The statute also provides exceptions to the open meeting requirement. Closed
sessions can be conducted to consider matters relating to individual employees,
proprietary information, litigation, and other matters requiring the confidential advice of
counsel, commercial or financial information obtained from a person on a privileged or
confidential basis, or the purchase of property or services whenever the premature
exposure of such purchase would compromise the business interests of any such
organization.

If a session is closed to the public pursuant to these statutory exceptions, a written
statement containing an explanation of the reasons for closing the meeting must be
made publicly available within a reasonable period of time thereafter. The explanation
for a closed meeting, however, does not have to be made available in the same manner
as the notice of an open meeting.

       Open Financial Records

Our examination found that one of the three stations tested did not have all the required
financial reports available to the public. We found that while KPFA had a copy of the
Foundation’s audited financial statements available at the station; they did not have a
copy of its AFRs, as required by the Act.




                                             10
Section 396(k) (5) of the Communications Act provides that "Funds may not be
distributed pursuant to this subsection to any public telecommunications entity that does
not maintain for public examination copies of the annual financial and audit reports, or
other information regarding finances, submitted to the Corporation pursuant to
subsection (l)(3)(B)."

      Documenting Compliance with Requirements

Our examination found that the Foundation had not developed documentation or written
procedures that explain how its stations comply with the open meeting, open financial
records, CAB, EEO, or donor list and political activities requirements of the Act.

CPB’s Certification Requirements for Station Grant Recipients provides guidance to
establish written procedures addressing, open meetings, open financial records, CAB,
EEO, and donor list and political activities requirements. Each recipient of a CPB
station grant should develop documentation explaining how the station complies with
these requirements.

This documentation should address the procedures for conducting open meetings,
including CAB meetings, and the methods used to give reasonable notice to the public;
the types of financial and EEO information to be made available to the public, including
the mechanisms used to give the public access to this information; and political activity
restriction requirements. This documentation shall be kept by each station at a
reasonable location and made available to CPB, upon request, to determine the fact
and extent of compliance with these requirements.

Such procedures should specify how the station actually goes about complying with
each of the five sections of the certification requirements. These procedures not only
provide operating guidance for station officials, but also provide the public with
information about how the station complied with these grant requirements.

                                     *    *      *   *    *

Our discussions with Foundation officials and the managers at the three stations tested
disclosed they were not fully aware of the Act’s requirements.

      Recommendations

3) We recommend that CPB management require the Foundation to:

   a) take appropriate action to fully comply with all requirements of the open meetings
      and open financial records requirements;
   b) document procedures for complying with all five requirements of the
      Communications Act (i.e., open meetings, open financial records, Community
      Advisory Board, EEO, and donor lists; and
   c) provide CPB with evidence to show that its five radio stations are in compliance



                                            11
       with the requirements for open meetings and open financial records, as well as
       evidence that procedures have been developed and implemented to ensure
       compliance with the Acts requirements.

       Foundation Response

In response to this finding, Foundation officials stated that although the Foundation
does currently have open meetings, the National Pacifica Board will pass a resolution at
their September meeting requiring that each station follow the requirements and keep
evidence of the exact wording and date of compliance, as well as audio copies of
announcements. The proposed resolution will include the following specific CPB
requirements for open meetings, open financial records, EEO, and donor lists.

      Each station will keep documentation including audio copies of the quarterly
       announcements of open meetings with the time and date that they were
       announced. These announcements will be aired for at least three consecutive
       days each quarter. They will include information as to how the public can obtain
       information regarding specific dates, times, and locations.

      Each station will be required to announce Pacifica National Board (PNB), Local
       Station Boards, and other committee meetings at least seven days in advance
       both on air and on the station’s website. Documentation will be maintained of a
       recorded copy of the on air announcement with the time and date and a copy of
       the web announcement. Meetings are currently listed on the Pacifica calendar
       available by a link from the Pacifica website, www.pacifica.org or directly at
       www.kpftx.org.

      Stations will be required to include in their web announcements that persons can
       request that they be personally notified of meetings.

      All stations and the PNB will provide documentation of reasons for all closed
       meetings.

      Stations will be required to provide the date and time the announcement was
       aired for Community Advisory Board meetings.

      Each station is currently required to have financial records (i.e., audited financial
       report and other financial records) available, as well as, the AFR online at
       www.pacifica.org and on each station website.

      Each station that has more than five full time employees is required to file an
       annual EEO report with CPB. Copies of these reports are maintained in the
       National Office and at each station.

      Pacifica does not share or rent donor lists to anyone and each station must keep
       a record of all fund-raising activities utilizing donor lists.



                                             12
The proposed resolution will also place additional requirements on the five Pacifica
stations to ensure future compliance with CPB guidelines as discussed further in the
Foundation’s response to the draft report provided in Exhibit H.

      OIG Review and Comment

Based on the Foundation’s response, we consider recommendations 3a-c unresolved
pending passage of the proposed resolution at the September meeting of the
Foundation’s Board of Directors. Additionally, the Foundation must establish and
implement, written operating policies addressing the five compliance requirements
addressed in recommendation 3b. Finally, the Foundation must provide CPB with
copies of the written policies, as well as evidence that the five stations are complying
with the open meetings and open financial records requirements addressed in
recommendation 3c.




                                            13
                                                                                             Exhibit A

                                 CPB Grant Awards and Payments to
                                 Pacifica Foundation Radio Stations
                                       Fiscal Years 2009 – 2010

                             Payment
      Grant Type              Dates       KPFA       KPFK       KPFT       WBAI       WPFW       TOTAL


FY09 CSG Unrestricted        October-08   $166,625   $141,143    $59,307   $132,971    $88,070    $588,116
                              March-09    $166,625   $141,143    $59,307   $132,970    $88,070    $588,115


FY09 CSG Restricted          October-08    $58,880    $49,875    $20,958    $46,987    $31,121    $207,821
                              March-09     $58,879    $49,874    $20,957    $46,987    $31,120    $207,817


FY10 CSG Unrestricted        October-09   $110,520   $129,129    $57,653   $117,729   $103,934    $518,965
                              March-10    $110,519   $129,128    $57,653   $117,729   $103,933    $518,962


FY10 CSG Restricted          October-09    $39,460    $46,104    $20,584    $42,034    $37,108    $185,290
                              March-10     $39,459    $46,103    $20,584    $42,033    $37,108    $185,287
Total CSGs                                $750,967   $732,499   $317,003   $679,440   $520,464   $3,000,373


Fiscal Stabilization grant   January-10    $39,197    $33,834    $15,916    $35,782    $23,432     148,161


Total Grant Payments                      $790,164   $766,333   $332,919   $715,222   $543,896   $3,148,534

  Note: Grant revenue is recognized when expenses are incurred. As a result Exhibit A cash receipts were
  not necessarily reported as revenues on the AFRs (Exhibits B and C) in the year received.




                                                        14
                                                                                                                                         Exhibit B

                                                     Pacifica Foundation Radio Stations
                                                 Annual Financial Reports for Fiscal Year 2009

Line                                       Description                               KPFA         KPFK         KPFT         WBAI         WPFW         TOTAL


        Schedule A, Source of Income:
 2      Amounts provided by Public Broadcasting Entities                              $361,031     $340,121     $160,529     $354,915     $193,381     $1,409,977
2.A.    CPB-CSG                                                                       $243,273     $240,373     $118,614     $260,941     $171,140     $1,034,341
2.B.    CPB-Digital Project Grants                                                                                                        ($40,000)     ($40,000)
2.C.    CPB-Restricted CSG                                                            $117,758      $99,748      $41,915      $98,974      $67,241      $425,636
2.I.
        Other PBE funds (specify)                                                                                             ($5,000)     ($5,000)     ($10,000)
 3
        Local Boards and departments of education                                       $4,050                                                            $4,050
 5      State colleges and universities                                                 $1,619                                                            $1,619
 8      Foundation and nonprofit associations                                         $105,234       $1,000      $10,329      $33,613      $12,000      $162,176
8.a.     How much of the revenue was received as underwriting?
 9      Business and Industry                                                           $9,310                                                            $9,310
9.a.     How much of the revenue was received as underwriting?
 10     Memberships and subscriptions                                                $2,666,512   $2,993,818    $866,770    $1,524,976   $1,047,745    $9,099,821
 14     Special fund-raising activities                                               $118,948      $20,243      $32,665     $190,109      $10,809      $372,774
14.A.   Gross special fund-raising activities                                         $250,671      $27,078      $55,536     $240,501      $44,655      $618,441
14.B.   Direct special fund-raising expenses                                          $131,723       $6,835      $22,871      $50,392      $33,846      $245,667
 15     Passive Income                                                                 $17,194       $1,274         $348                      $135       $18,951
15.A.   Interest and dividends                                                         $17,194       $1,274         $348                      $135       $18,951
 16     Gains and losses on investments, charitable trusts and gift annuities                       ($1,586)                                             ($1,586)
16.C.   Unrealized gains/losses on investments                                                      ($1,586)                                             ($1,586)
 19     Gifts and Bequests from major donors                                          $165,952      $44,031      $41,961     $119,619      $20,216      $391,779
 20     Other Direct Revenue                                                            $2,250       $1,402         $325                                  $3,977
 21     Total Revenue                                                                $3,583,823   $3,407,138   $1,135,798   $2,273,624   $1,318,132   $11,718,515




                                                                                15
                                                                                                                                    Exhibit B (continued)

                                                     Pacifica Foundation Radio Stations
                                                 Annual Financial Reports for Fiscal Year 2009

Line                                      Description                                        KPFA         KPFK         KPFT           WBAI         WPFW         TOTAL


         Adjustments to Revenue
 23     Public broadcasting revenue                                                           $361,031     $340,121     $160,529       $354,915     $193,381     $1,409,977
 25     Other revenue on Line 21 not meeting source, form, purpose or recipient criteria       $11,560                                                             $11,560
 26     Other automatic subtractions from total revenue                                       $131,723       $5,249      $22,871        $50,392      $33,846      $244,081
26.B.   Special fund-raising event expenses-limited to the lesser of lines 14a or 14b         $131,723       $6,835      $22,871        $50,392      $33,846      $245,667
26.E.   Unrealized investment and actuarial gains/losses                                                    ($1,586)                                               ($1,586)
 27     Total Direct Nonfederal Financial Support                                            $3,079,509   $3,061,768    $952,398      $1,868,317   $1,090,905   $10,052,897


        Schedule B, Indirect Administrative support                                                 $0           $0           $0             $0           $0            $0


        Schedule C, In-Kind Contributions - Services and Other Assets                               $0           $0           $0             $0           $0            $0


        Schedule D, In-Kind Contributions - Property and equipment                                  $0           $0           $0             $0           $0            $0


        Schedule E, Expenses
         Program Services
 1        Programming and Production                                                         $1,670,557   $1,082,161    $234,705       $857,258     $331,271     $4,175,952
 2        Broadcasting and Engineering                                                        $599,497     $377,438      $93,839       $832,088     $245,362     $2,148,224
 3        Program Information and Promotion                                                   $114,318      $47,687      $21,823        $46,352      $12,036      $242,216
         Support Services
 4        Management and general                                                             $1,293,056   $1,016,466    $458,466      $1,008,495    $786,076     $4,562,830
 5        Fund-raising and Membership Development                                             $826,327     $891,909     $405,129       $621,213     $569,810     $3,314,388
 8      Total Expenses                                                                       $4,503,755   $3,415,661   $1,213,962     $3,365,406   $1,944,555   $14,443,339




                                                                                        16
                                                                                                                Exhibit B (continued)

                                                   Pacifica Foundation Radio Stations
                                               Annual Financial Reports for Fiscal Year 2009

Line                                    Description                      KPFA         KPFK         KPFT           WBAI         WPFW         TOTAL


       Investment in Capital Assets
 9      Total Capital assets Purchased or Donated                          $77,787      $24,147      $35,729             $0           $0      $137,663
9.a.    Land and Buildings                                                 $36,470      $10,000      $14,895             $0           $0       $61,365
9.b.    Equipment                                                          $41,317           $0      $17,533             $0           $0       $58,850
9.c.    All Other                                                               $0      $14,147       $3,301             $0           $0       $17,448
 10    Total Expenses and Investment in Capital Assets                   $4,581,542   $3,439,808   $1,249,691     $3,365,406   $1,944,555   $14,581,002


       Additional Information
 11     Total Expenses (Direct only)                                     $4,503,755   $3,415,661   $1,213,962     $3,365,406   $1,944,555   $14,443,339
 13     Investment in Capital Assets (Direct only)                         $77,787      $24,147      $35,729             $0           $0      $137,663


       Schedule F
 1     Data from AFR                                                     $3,583,823   $3,407,138   $1,135,798     $2,273,624   $1,318,132   $11,718,515
1.a.    Schedule A, Line 21
1.e.   Total from AFR                                                    $3,583,823   $3,407,138   $1,135,798     $2,273,624   $1,318,132   $11,718,515




                                                                    17
                                                                                                                                                Exhibit C

                                                         Pacifica Foundation Radio Stations
                                                    CPB Annual Financial Reports Fiscal Year 2010

Line                                       Description                                     KPFA         KPFK         KPFT         WBAI         WPFW         TOTAL


        Schedule A, Source of Income:
 2      Amounts provided by Public Broadcasting Entities                                    $339,155     $384,298     $172,390     $355,307     $305,515     $1,556,665
2.A.    CPB-CSG                                                                             $260,236     $292,091     $131,222     $271,240     $231,299     $1,186,088
2.C.    CPB-Restricted CSG                                                                   $78,919      $92,207      $41,168      $84,067      $74,216      $370,577
 3
        Local boards & departments of education or other local government or agency           $7,650                                                            $7,650
 5
        State colleges and universities                                                       $2,181                                             $25,000       $27,181
 8      Foundation and nonprofit associations                                                 $2,500                                 $9,000      $10,650       $22,150
8.A.     How much of the revenue was received as underwriting? (2009 - $3,600)
 9      Business and Industry                                                                $18,278                      $800                                 $19,078
9.A.     How much of the revenue was received as underwriting?
 10     Memberships and subscriptions                                                      $2,460,990   $2,163,851    $849,506    $1,945,074   $1,061,130    $8,480,551
 12     Subsidiaries and other activities unrelated to public broadcasting                                   $495         $214                   $21,324       $22,033
 14     Special fund-raising activities                                                     $117,944      $88,766      $26,233     $105,910                   $338,853
14.A.   Gross special fund-raising activities                                               $225,641     $138,393      $56,556     $185,211       $7,609      $613,410
14.B.   Direct special fund-raising expenses                                                $107,697      $49,627      $30,323      $79,301      $16,809      $283,757
 15     Passive Income                                                                       $29,400       $1,112         $164                    $1,174       $31,850
15.A.   Interest and dividends                                                               $29,400       $1,112         $164                    $1,174       $31,850
 16     Gains and losses on investments, charitable trusts and gift annuities                  ($243)        $997                                                 $754
16.B.   Realized gains/losses on investments (other than endowment funds)                      ($243)                                                            ($243)
16.C.   Unrealized gains/losses on investments                                                               $997                                                 $997
 18     Capital Fund Contributions                                                                                                   $9,200                     $9,200
 19     Gifts and Bequests from major donors                                                $450,166     $398,984     $128,120     $455,457     $126,644     $1,559,371
 20     Other Direct Revenue
 21     Total Revenue                                                                      $3,535,718   $3,088,110   $1,207,750   $2,959,249   $1,559,046   $12,349,873




                                                                                      18
                                                                                                                                       Exhibit C (continued)

                                                        Pacifica Foundation Radio Stations
                                                   CPB Annual Financial Reports Fiscal Year 2010

Line                                      Description                                           KPFA         KPFK          KPFT          WBAI         WPFW          TOTAL


         Adjustments to Revenue
 23     Public broadcasting revenue                                                              $339,155     $384,298     $172,390       $355,307     $305,515     $1,556,665
 25     Other revenue on Line 21 not meeting source, form, purpose or recipient criteria          $28,109         $195       $1,014                     $21,324       $50,642
 26     Other automatic subtractions from total revenue                                          $107,454      $50,604      $30,323        $79,301       $7,609      $275,291
        Special fund-raising event expenses-limited to the lesser of lines 14A or 14B14a or
26.B.   14b                                                                                      $107,697      $49,627      $30,323        $79,301       $7,609      $274,557
26.E.   Unrealized investment and actuarial gains/losses                                                          $977                                                   $977
 27     Total Direct Nonfederal Financial Support                                               $3,061,000   $2,653,013   $1,004,023     $2,524,641   $1,224,598   $10,467,275


        Schedule B, Indirect Administrative support                                                    $0           $0            $0            $0           $0             $0


        Schedule C, In-Kind Contributions - Services and Other Assets                                  $0           $0            $0            $0           $0             $0


        Schedule D, In-Kind Contributions - Property and equipment                                     $0           $0            $0            $0           $0             $0


        Schedule E, Expenses
         Program Services
 1        Programming and Production                                                            $1,525,695   $1,084,221    $283,733       $935,233     $342,479     $4,171,361
 2        Broadcasting and Engineering                                                           $529,805     $331,523     $109,685      $1,001,408    $253,636     $2,226,057
 3        Program Information and Promotion                                                       $95,812      $42,332      $25,696        $65,567      $51,284      $280,691
         Support Services
 4        Management and general                                                                $1,084,527    $962,229     $530,200      $1,042,759    $757,611     $4,377,326
 5        Fund-raising and Membership Development                                                $919,754     $820,899     $339,901       $697,239     $485,551     $3,263,344
 8      Total Expenses                                                                          $4,155,593   $3,241,204   $1,289,215     $3,742,196   $1,890,561   $14,318,769




                                                                                           19
                                                                                                                      Exhibit C (continued)

                                                          Pacifica Foundation Radio Stations
                                                     CPB Annual Financial Reports Fiscal Year 2010

Line                                    Description                            KPFA         KPFK         KPFT          WBAI         WPFW         TOTAL


       Investment in Capital Assets
 9      Total Capital assets Purchased or Donated                                $10,026      $20,383      $13,649       $16,000                    $60,058
9.b.    Equipment                                                                 $2,120                   $13,649                                  $15,769
9.c.    All Other                                                                 $7,906      $20,383                    $16,000                    $44,289
 10    Total Expenses and Investment in Capital Assets                         $4,165,619   $3,261,587   $1,302,864    $3,758,196   $1,890,561   $14,378,827


       Additional Information
 11     Total Expenses (Direct only)                                           $4,155,593   $3,241,204   $1,289,215    $3,742,196   $1,890,561   $14,318,769
 13     Investment in Capital Assets (Direct only)                               $10,026      $20,383      $13,649       $16,000                    $60,058


       Schedule F
 1     Data from AFR
1.a.    Schedule A, Line 21                                                    $3,535,718   $3,088,110   $1,207,750    $2,959,249   $1,559,046   $12,349,873
1.e.   Total from AFR                                                          $3,535,718   $3,088,110   $1,207,750    $2,959,249   $1,559,046   $12,349,873




                                                                          20
                                                                                           Exhibit D

                        Summary of Non-Federal Financial Support
                   Reported to CPB by Pacifica Foundation Radio Stations
                                     Fiscal Year 2009


       AFR Schedule                KPFA        KPFK         KPFT       WBAI         WPFW          TOTAL

Direct Revenue (Schedule A)       $3,079,509   $3,061,768   $952,398   $1,868,317   $1,090,905   $10,052,897
Indirect Administrative Support
     (Schedule B)                         0            0           0           0            0
In-Kind Contributions
     (Schedules C&D)
    a. Services and Other
         Assets (Schedule C)              0            0           0           0            0
    b. Property and equipment
         (Schedule D)                     0            0           0           0            0

         TOTAL NFFS               $3,079,509   $3,061,768   $952,398   $1,868,317   $1,090,905   $10,052,897




                                                       21
                                                                                             Exhibit E

                         Summary of Non-Federal Financial Support
                    Reported to CPB by Pacifica Foundation Radio Stations
                                      Fiscal Year 2010


AFR Schedule                       KPFA        KPFK          KPFT        WBAI         WPFW          TOTAL

Direct Revenue (Schedule A)       $3,061,000   $2,653,013   $1,004,023   $2,524,641   $1,224,598   $10,467,275
Indirect Administrative Support
     (Schedule B)                         0            0            0            0            0
In-Kind Contributions
      (Schedules C&D)
    a. Services and Other
         Assets (Schedule C)              0            0            0            0            0
    b. Property and equipment
         (Schedule D)                     0            0            0            0            0

         TOTAL NFFS               $3,061,000   $2,653,013   $1,004,023   $2,524,641   $1,224,598   $10,467,275




                                                       22
                                                                                    Exhibit F

         Calculation of CSG Overpayments by Station and Fiscal Year

                        KPFA       KPFK            KPFT       WBAI       WPFW         Total

Fiscal Year 2009:
Premiums                $129,632   $362,075         $50,506   $108,631   $175,217     $826,061
Market Value-Tickets           0          0               0   $151,748          0     $151,748
Direct Expenses           $2,174    $15,660         $14,829    $16,703     $3,403       $52,769
       FY 2009 TOTAL    $131,806   $377,735         $65,335   $277,082   $178,620    $1,030,578

     FY 2009 IRR        6.4888%    6.4888%         6.4888%    6.4888%    6.4888%

FY 09 CSG Overpayment     $8,553    $24,510          $4,239    $17,979    $11,590      $66,871

Fiscal Year 2010:
Premiums                $252,655   $263,872         $40,395   $212,390   $128,851     $898,163
Market Value-Tickets           0          0               0   $170,144          0     $170,144
     FY 2010 TOTAL      $252,655   $263,872         $40,395   $382,534   $128,851    $1,068,307

     FY 2010 IRR        6.21241%   6.21241%        6.21241%   6.21241%   6.21241%

FY10 CSG Overpayment     $15,696    $16,393          $2,510    $23,765     $8,005      $66,369

  FY 2009-2010 Total
    Overpayments         $24,249    $40,903          $6,749    $41,744    $19,595     $133,240




                                              23
                                                                                      Exhibit G

                                   Scope and Methodology

We performed this examination to determine Pacifica Foundation’s compliance with
CPB’s NFFS reporting requirements; Certification of Eligibility requirements; selected
provisions of the Communications Act of 1934, as amended; and, grant spending
requirements.

To answer our examination objectives we conducted analytical procedures and analysis
of the AFRs, AFR work sheets, CSG expenses, and the detailed general ledgers for all
five radio stations. We also conducted detailed audit tests at KPFA in Berkeley,
California, WBAI in New York City, and WPFW in Washington, DC.

The scope of the audit included tests of the five radio stations’ AFRs, Schedule A, and
the data reported on them for the fiscal years ended September 30, 2009, and 2010.
For those years we performed financial reconciliations and comparisons to underlying
accounting records and the audited financial statements to verify transactions recorded
in the general ledger and reported on the AFRs. Over 80 percent of the Foundation
radio stations’ NFFS is from individual membership contributions received through a
“lock box” company. We evaluated compliance with CPB Guidelines, by reviewing the
documentation for the higher risk revenue category of special fund-raising activities and
its related expenses. We tested $618,441 of the $953,076 of non-membership NFFS
claimed on the five radio stations’ FY 2009 AFRs and $613,410 of the $1,986,724 non-
membership NFFS claimed on the FY 2010 AFRs.1

We reviewed allowability of expenditures totaling $1,073,974 of the $3,148,534 (34
percent) that the Foundation radio stations received in CPB grant funds for FYs 2009
and 2010 shown in Exhibit A to determine compliance with grant agreement terms.
Because CSGs have a two-year grant spending period, we reviewed expenditures
through September 30, 2011.

We reviewed documentation of KPFA, WBAI, and WPFW’s compliance with the Act
requirements. Specifically, we reviewed their public inspection files, Foundation Board
of Director’s (BOD) meeting minutes, Community Advisory Board (CAB) meeting
minutes, and evidence that the meetings of all Foundation Boards and Committees
were announced to the public. We reviewed the open financial records file and Equal
Employment Opportunity (EEO) documents to ensure they were available for general
public inspection in compliance with the Act. Finally, we reviewed KPFA, WBAI, and
WPFW’s compliance with CPB’s donor list and political activities requirements.




1
    We tested 6.14 percent of FY 2009 NFFS revenues and 5.86% of FY 2010 NFFS revenues.


                                                 24
To assist in our audit planning and assure ourselves that we could rely on the work
performed by Foundation’s independent public accountant (IPA), we met with
representatives of the firm that conducted the FY 2010 financial statement audit and
attestation work on the radio stations AFRs. We reviewed their tests of internal controls
and their fraud risk assessment analysis. For the attestation review, we also reviewed
their test work on the accuracy of the radio stations AFRs.

We gained an understanding of the Foundation’s internal controls over the preparation
of the AFRs and cash receipts as part of our overall risk assessment. We used this
understanding to plan our audit work and select those areas that posed the greatest risk
to the accurate reporting of NFFS.

We performed this audit as a compliance attestation examination under Government
Auditing Standards. We performed our audit field work between January and June
2012.




                                           25
